APPENDIX TABLE OF CONTENTS
Judgment of the United States Court of Appeals
for the Eighth Circuit
(January 25, 2021) ................................................ 1a
Memorandum and Order of the United States
District Court for the District of Nebraska
(October 26, 2020) ................................................. 3a
Opinion of the Supreme Court of Nebraska
(February 7, 2020) ............................................... 21a
Memorandum Opinion and Judgment of the
Nebraska Court of Appeals
(February 26, 2019) ............................................. 40a
Order of the Nebraska Court of Appeals
(January 21, 2016) .............................................. 49a

App.1a

JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE EIGHTH CIRCUIT
(JANUARY 25, 2021)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
JASON ASSAD,

Petitioner-Appellant,
v.
TODD WASMER, Warden Tecumseh Correctional
Institution; SCOTT R. FRAKES, director of the
Nebraska Department of Correctional Services,

Respondents-Appellees.
________________________
No. 20-3448
Appeal from U.S. District Court for the District of
Nebraska-Lincoln (4:20-cv-03070-RFR)
Before: COLLOTON, GRUENDER, and
KOBES, Circuit Judges.
This appeal comes before the court on appellant’s
application for a certificate of appealability. The court
has carefully reviewed the original file of the district
court, and the application for a certificate of appealability is denied. The appeal is dismissed.

App.2a
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
January 25, 2021

App.3a
MEMORANDUM AND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
(OCTOBER 26, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
________________________
JASON ASSAD,

Petitioner,
v.
TODD WASMER, Warden of Tecumseh Correctional
Institution, and SCOTT R. FRAKES, Director of the
Nebraska Department of Correctional Services,

Respondents.
________________________
No. 4:20CV3070
Before: Robert F. ROSSITER, JR.,
United States District Judge.
This matter is before the Court on petitioner Jason
Assad’s (“Assad”) Petition for a Writ of Habeas
Corpus (“petition”) under 28 U.S.C. § 2254 (Filing
No. 1). Assad, an inmate at the Tecumseh State
Correctional Institution (“Tecumseh”), within the
Nebraska Department of Correctional Services
(“NDCS”), “seeks a conditional writ of habeas corpus in
which he can only be released if the State of Nebraska
refuse[s] to permit a direct appeal.” Respondents Todd

App.4a
Wasmer, Warden at Tecumseh, and Scott R. Frakes,
Director of the NDCS (collectively, “State”), urge the
Court to dismiss Assad’s petition with prejudice. For
the reasons stated below, Assad’s petition is denied,
and this case is dismissed with prejudice.
I.

Background
A. Facts1

At about 8:00 a.m. on September 14, 2014, a man
called the Sydney, Nebraska, Police Department to
report he heard an unknown woman scream from the
direction of the El Palomino Motel (“motel”) in Sydney.
At the time, Assad and his wife owned and lived at
the motel.
An officer arrived at the scene a few minutes
later, spoke with the witness, and attempted to make
contact with someone at the motel. He knocked on
three room doors, rang the buzzer at the motel office,
and called the phone number listed on the front door.
When no one answered, he obtained a search warrant.
About four hours after the initial call, the police
executed the warrant and performed a “welfare check”
at Assad’s residence at the motel. They found his wife
in a back bedroom with injuries to her face and head.
An officer escorted her from the motel and took her
to a nearby ambulance.
Assad was also there, yelling profanities. An officer
patted him down and found a syringe in his pocket.
1 The facts in this case are not in dispute. The Court’s recitation
of the facts is primarily drawn from Assad’s petition and
supporting brief (Filing No. 13) and the Nebraska Supreme
Court’s opinion in State v. Assad, 938 N.W.2d 297 (Neb. 2020).

App.5a
He was taken into custody. The police then obtained
additional search warrants pursuant to which they
seized some evidence of drug use and a surveillance
video from inside the motel room. Further investigation
also revealed Assad, a convicted felon, unlawfully
possessed a knife and rifle in the room that morning.
Ultimately, Assad was charged with (1) possession
of a knife by a prohibited person; (2) first-degree false
imprisonment; (3) terroristic threats; (4) use of a knife
to commit a felony; and (5) possession of a firearm by
a prohibited person. The prosecutor also alleged Assad
should be sentenced as an habitual criminal based on
two prior felony convictions.
Before trial, Assad, through appointed counsel,
filed several motions to suppress the evidence the police
obtained pursuant to three separate search warrants,
arguing the evidence was obtained in violation of his
rights under the United States and Nebraska constitutions. After several evidentiary hearings, the district
court denied all of Assad’s suppression motions.
Although the contested evidence played a key role
in Assad’s trial, Assad’s counsel failed to renew his
evidentiary objections at trial. Under Nebraska law, a
criminal “defendant must object at trial to admission
of the evidence which was the subject of the suppression motion in order to preserve an appellate question
concerning admissibility of that evidence.” State v.
Cody, 539 N.W.2d 18, 24 (Neb. 1995).
On April 17, 2015, the jury found Assad guilty on
all five counts. The district court denied his motion
for a new trial. After an enhancement hearing on
May 29, 2015, the district court determined Assad was
an habitual criminal. See Neb. Rev. Stat. § 29-2221.

App.6a
He received an aggregate sentence of 35 to 60 years
in prison.
B. Postconviction Procedural History
Assad obtained new counsel for his appeal. His
appellate counsel’s opening brief was forty pages long
and contained two assignments of error—that the
district court erred in (1) denying his motions to
suppress and (2) deciding that the evidence obtained
after the first illegal search was not “fruit of the
poisonous tree” under Wong Sun v. United States,
371 U.S. 471, 488 (1963).
On December 16, 2015, the State moved for summary affirmance, pointing out that Assad’s trial
counsel failed to preserve his evidentiary issues for
appeal because he did not object to the admission of
the evidence at trial. In response, Assad moved for
leave to file a revised brief that would address that
issue by adding a third assignment of error that “any
failure by Assad’s trial counsel to object to the admission of such evidence at trial constituted ineffective
assistance of counsel.”
The Nebraska Court of Appeals (“Court of
Appeals”) denied Assad’s motion for leave and
sustained the State’s motion for summary affirmance,
ostensibly finding that trial counsel’s failure to object
was fatal to Assad’s appeal. Assad sought further
review from the Nebraska Supreme Court, which was
denied.
On March 27, 2017, Assad—again with new counsel—timely filed a verified motion for postconviction
relief. He sought relief on six grounds, including a
“layered” claim that his trial counsel was ineffective

App.7a
for failing to object at trial and preserve his appeal of
the denial of his suppression motions and that his
appellate counsel was ineffective for failing to raise
ineffective assistance of trial counsel in her opening
brief. Assad argued his counsel’s errors denied him
his constitutional right to appellate review and the
only effective remedy would be to grant him a new
direct appeal. According to Assad, under Nebraska
law, if he received a new direct appeal because his
appellate counsel was ineffective, he could raise all of
the issues presented in his motion for postconviction
relief.
On the State’s motion to dismiss, the district court
denied Assad’s motion without an evidentiary hearing.
Rejecting Assad’s assertion that he was entitled to a
new direct appeal, the district court concluded his
claims were subject to review under the familiar twopart test articulated in Strickland v. Washington, 466
U.S. 668, 694 (1984). To establish ineffective assistance of counsel under Strickland, a defendant must
show his counsel’s representation was both deficient
and prejudicial. Id. at 687-88. The district court
concluded Assad could not show prejudice because
the arguments he wanted his appellate counsel to raise
lacked merit. In particular, the district court found
Assad’s motions to suppress were properly denied
and the evidence derived from the search warrants
was properly admitted at trial.
On November 17, 2017, Assad appealed. See State
v. Assad, No. A-17-1193, 2019 WL 951169, at *2-3
(Neb. Ct. App. Feb. 26, 2019). Assad argued, in part,
that the district court erred in denying his “layered”
ineffective-assistance-of-counsel claim by requiring
him to prove prejudice. In Assad’s view, the district

App.8a
court should have presumed prejudice and granted
him a new appeal because his appellate counsel’s
mistakes resulted in a summary affirmance without
any review of the merits.
The Court of Appeals affirmed, concluding (1)
Assad did not specifically argue most of his ineffectiveassistance-of-counsel claims as required under
Nebraska law and (2) “[a]ny error with respect to the
denial of his [constitutional] right to a direct appeal
was not assigned as error.” Id. at *3. The Court of
Appeals did not consider those issues Assad did not
specifically assign or argue and denied his last claim
on the merits. Id. at *3-4.
Assad again petitioned for further review. See
Assad, 938 N.W.2d at 301. He assigned one error—
“that the Court of Appeals erred by affirming the district court’s dismissal of his ineffective assistance of
appellate counsel claim.” Id. He again argued he was
“entitled to a presumption of prejudice and a new
direct appeal.” Id.
The Nebraska Supreme Court granted the petition
and ordered supplemental briefing “addressing
whether, under the circumstances, Assad was required
to demonstrate prejudice under Strickland or whether
this is a case in which prejudice is presumed.” Id.
After carefully reviewing the governing legal standards
and the parties’ respective arguments, the Nebraska
Supreme Court concluded “Assad was required to
demonstrate prejudice under Strickland and that he
failed to do so.” Id. at 306.
On June 16, 2020, Assad filed this petition for a
writ of habeas corpus under 28 U.S.C. § 2254(a).
That statute permits a state prisoner like Assad to

App.9a
petition a federal court for a writ of habeas corpus if
he alleges “he is in custody in violation of the Constitution or laws or treaties of the United States.” Id.
Assad asserts just one ground for relief:
PETITIONER HAS BEEN DENIED HIS
CONSTITUTIONAL RIGHT TO ONE DIRECT
APPEAL OF HIS CONVICTION UNDER
Neb. Rev. Stat. § 25-1912 IN WHICH “PREJUDICE” SHOULD BE PRESUMED
BECAUSE THE ERRORS BY APPELLATE
COUNSEL TOTALLY PREVENTED PETITIONER FROM OBTAINING ANY REVIEW
OF HIS CONVICTION ON ANY MERITS
IN VIOLATION OF THE SIXTH AND
FOURTEENTH AMENDMENTS AND THE
DECISION IN Douglas v. California, 372 U.S.
353 (1963) AND Evitts v Lucey, 469 U.S. 387,
105 S. Ct. 830 (1985) AND THEIR PROGENY.
The State opposes Assad’s petition on the merits
but does not deny that his petition is timely, see 28
U.S.C. § 2244(d)(1), and that he has exhausted all
available state-court remedies, see id. § 2254(b)(1)(A);
Baldwin v. Reese, 541 U.S. 27, 29 (2004).
II. Discussion
A. Standard of Review
The Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”), Pub. L. 104–132, 110 Stat.
1214 (1996), governs the Court’s review of Assad’s
habeas petition. See Franklin v. Hawley, 879 F.3d
307, 310 (8th Cir. 2018). “AEDPA sharply limits the
circumstances in which a federal court may issue a
writ of habeas corpus to a state prisoner whose claim

App.10a
was ‘adjudicated on the merits in State court proceedings.’” Johnson v. Williams, 568 U.S. 289, 298 (2013)
(quoting 28 U.S.C. § 2254(d)); accord Burt v. Titlow,
571 U.S. 12, 15-16 (2013) (“Recognizing the duty and
ability of our state-court colleagues to adjudicate claims
of constitutional wrong, AEDPA erects a formidable
barrier to federal habeas relief for prisoners whose
claims have been adjudicated in state court.”).
Under AEDPA’s “highly deferential standard for
evaluating state-court rulings,” Lindh v. Murphy, 521
U.S. 320, 333 n.7 (1997), the Court can only grant
Assad’s petition if the Nebraska Supreme Court’s
adjudication of his claim
(1) resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States;
or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d); see also Bell v. Cone, 535 U.S. 685,
693 (2002) (explaining AEDPA “modified a federal
habeas court’s role in reviewing state prisoner applications in order to prevent federal habeas ‘retrials’
and to ensure that state-court convictions are given
effect to the extent possible under law”). Assad argues
“he should be granted a new direct appeal under 28
U.S.C. § 2254(d)(1).”
The phrase “clearly established Federal law,
as determined by the Supreme Court of the United
States” as used in § 2254(d)(1) “refers to the holdings,

App.11a
as opposed to the dicta, of th[e] [Supreme] Court’s
decisions as of the time of the relevant state-court
decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000).
A state-court decision is “contrary to” clearly established
Supreme Court precedent if “the state court applies a
rule different from the governing law set forth in
[the Supreme Court’s] cases, or if it decides a case
differently than [the Supreme Court has] on a set of
materially indistinguishable facts.” Bell, 535 U.S. at
694.
A state court’s application of the Supreme Court’s
clearly established precedent is “unreasonable” if it
“identifies the correct governing legal principle from
th[e] [Supreme] Court’s decisions but unreasonably
applies that principle to the facts of the prisoner’s
case.” Williams, 529 U.S. at 413. An unreasonable
application of the Supreme Court’s “holdings must be
‘objectively unreasonable,’ not merely wrong; even
‘clear error’ will not suffice.” White v. Woodall, 572
U.S. 415, 419 (2014) (quoting Lockyer v. Andrade,
538 U.S. 63, 75-76 (2003)); accord Williams, 529 U.S.
at 411 (“[A] federal habeas court may not issue the
writ simply because that court concludes in its independent judgment that the relevant state-court decision
applied clearly established federal law erroneously or
incorrectly.”).
This standard is—as Congress intended—“difficult
to meet.” Sexton v. Beaudreaux, 585 U.S. ___, ___,
138 S. Ct. 2555, 2558 (2018) (per curiam) (quoting
Harrington v. Richter, 562 U.S. 86, 102 (2011)). It
demands the Court give the Nebraska Supreme Court’s
decision “the benefit of the doubt.” Cullen v. Pinholster,
563 U.S. 170, 181 (2011) (quoting Woodford v. Visciotti,
537 U.S. 19, 24 (2002) (per curiam)). The Court “will

App.12a
not lightly conclude that a State’s criminal justice
system has experienced the ‘extreme malfunctio[n]’
for which federal habeas relief is the remedy.” Burt,
571 U.S. at 20 (alteration in original) (quoting Harrington, 562 U.S. at 102).
B. Presumption of Prejudice
Assad argues “[t]he applicable Supreme Court and
Eighth Circuit2 authorities hold that a ‘presumption
of prejudice’ applies when the actions of appellate
counsel actually or constructively denies [sic] an inmate
state court consideration of the merits on direct
appeal.” In support, he relies on Roe v. Flores Ortega, 528 U.S. 470, 483 (2000), an “unusual” case
in which “counsel’s alleged deficient performance
arguably led not to a judicial proceeding of disputed
reliability, but rather to the forfeiture of a proceeding
2 Assad’s heavy reliance on Eighth Circuit authority is misplaced.
He even goes so far as to suggest the Eighth Circuit’s opinion in
Hendricks v. Lock, 238 F.3d 985 (8th Cir. 2001), is binding on
the Nebraska Supreme Court “[u]nder principles of vertical stare
decisis ” because it “has not been overruled and is consistent
with the cited United States Supreme Court authorities in [his]
brief.” While the decision in Hendricks may be relevant in
determining reasonableness under § 2254, it neither constitutes
“clearly established Federal law, as determined by the Supreme
Court” nor binds the Nebraska Supreme Court. See, e.g., Williams,
529 U.S. at 381 (“If this Court has not broken sufficient legal
ground to establish an asked-for constitutional principle, the lower
federal courts cannot themselves establish such a principle with
clarity sufficient to satisfy the AEDPA bar.”); Marshall v.
Rodgers, 569 U.S. 58, 64 (2013) (per curiam) (rejecting “the
mistaken belief that circuit precedent may be used to refine or
sharpen a general principle of Supreme Court jurisprudence
into a specific legal rule that this Court has not announced”);
Harrington, 562 U.S. at 102-03 (recognizing the significance of
state sovereignty under AEDPA).

App.13a
itself.” More specifically, the criminal defendant in
Flores-Ortega alleged his counsel was constitutionally ineffective for failing “to file a notice of appeal on
his behalf after promising to do so.” Id. at 474.
In Flores-Ortega, the Supreme Court highlighted
the distinction between “cases involving mere ‘attorney
error,’” in which a defendant must show prejudice
under Strickland, and cases in which he “alleges not
that counsel made specific errors in the course of
representation, but rather that during the judicial
proceeding he was—either actually or constructively—
denied the assistance of counsel altogether.” Id. at 48283.
The Supreme Court noted that in United States
v. Cronic, 466 U.S. 648, 659 (1984), Penson v. Ohio,
488 U.S. 75, 88-89 (1988), and Smith v. Robbins, 528
U.S. 259, 286 (2000), it “held that the complete denial
of counsel during a critical stage of a judicial proceeding
mandates a presumption of prejudice because ‘the
adversary process itself’ has been rendered ‘presumptively unreliable.’” Flores-Ortega , 528 U.S. at 483;
accord Strickland, 466 U.S. at 692 (“Actual or constructive denial of the assistance of counsel altogether is
legally presumed to result in prejudice.”). “Drawing
on that line of cases,” the Supreme Court held in
Flores-Ortega “that when counsel’s constitutionally
deficient performance deprives a defendant of an appeal
that he otherwise would have taken, the defendant
has made out a successful ineffective assistance of
counsel claim entitling him to an appeal.” 528 U.S. at
484.
Assad maintains that is what happened in his
case—his appellate counsel’s failure to raise his trial
counsel’s ineffective assistance caused him to lose his

App.14a
direct appeal on summary dismissal. In Assad’s view,
although Strickland ’s prejudice requirement normally
applies to the errors appellate counsel makes regarding
“which issues to raise on appeal,” the error his appellate counsel made in this case was “sufficiently
egregious to presume prejudice.”
Assad says his case is like Hendricks v. Lock,
238 F.3d 985, 986 (8th Cir. 2001), in which the Eighth
Circuit upheld the district court’s determination “that
the insufficient performance of appellate counsel had
in effect denied [the defendant] his first appeal of
right in the state courts.” In Hendricks, the defendant
appealed his conviction but “[h]is appeal was rejected
without a decision on the merits” because his arguments were ‘completely undeveloped,’ ‘unsupported by
any reasoning,’ and ‘provided nothing for meaningful
review.’” Id. (quoting State v. Hendricks, 944 S.W.2d
208, 210 (Mo. 1997) (en banc)).
When the Missouri Supreme Court summarily
denied his motion to recall the mandate, the defendant
filed a § 2254 motion in the United States District
Court for the District of Missouri. Id. The district
court granted the motion, concluding the “case fell
within an exception to [Strickland ’s prejudice prong]
for defendants who are, actually or constructively,
altogether denied the assistance of counsel in a proceeding where a constitutional right to it exists.” Id.
at 987.
The respondent appealed, and the Eighth Circuit
affirmed. Id. at 986. In doing so, the Eighth Circuit—
at the respondent’s request—assumed the Missouri
Supreme Court had implicitly decided on the merits
that the defendant failed to show prejudice under
Strickland. Id. at 987. The Eighth Circuit nonetheless

App.15a
concluded “it would be unreasonable to hold that” the
defendant “was not prejudiced by his counsel’s delinquency,” which effectively deprived him of an appeal
that “passed constitutional muster.” Id. at 988.
In response to the respondent “point[ing] out that
the Supreme Court has distinguished the complete
denial of appellate counsel, which would justify a
presumption of Strickland prejudice, from ‘a case in
which counsel fails to press a particular argument on
appeal . . . or fails to argue an issue as effectively
as he or she might,’” the Eighth Circuit found the
defendant’s “case [wa]s not so easily distinguishable
from one that involves a complete denial of counsel.”
Id. at 988-89 (quoting Penson , 488 U.S. at 88).
Because his counsel’s ineffective assistance “altogether
denied [the defendant] a decision on the merits in his
first appeal of right,” the Eighth Circuit affirmed the
grant of habeas relief. Id. at 989. Assad seeks the
same result in this case.
The Nebraska Supreme Court carefully considered
Assad’s arguments but found he did not meet the high
bar for a presumption of prejudice under Strickland,
Cronic, and their progeny because his counsel’s failure was not “complete” or “extreme.” Assad , 938
N.W.2d at 302. In reaching that conclusion, the
Nebraska Supreme Court rejected Assad’s assertion
that his case was directly controlled by Flores-Ortega
and Garza v. Idaho, 586 U.S. ___, ___, 139 S. Ct. 738,
746-47 (2019) (deciding “Flores-Ortega’s presumption
of prejudice applies despite an appeal waiver). It
concluded Assad was “not denied a direct appeal
entirely” because his counsel did file an appeal, “[a]nd
although the Court of Appeals resolved the appeal
summarily, it considered the issues raised on appeal

App.16a
and affirmed the convictions rather than dismissing
the appeal.” Assad, 938 N.W.2d at 303.
Turning to Assad’s argument that prejudice should
be presumed because he “effectively received no direct
appeal,” the Nebraska Supreme Court observed the
absence of any U.S. Supreme Court decision characterizing circumstances like Assad’s “as equivalent to
the complete denial of an appeal.” Id. In particular,
the Nebraska Supreme Court noted “Assad’s counsel
filed a 40-page brief, which assigned multiple errors,”
attempted “to raise additional assignments of error,”
and petitioned for further review.
In the Nebraska Supreme Court’s view, Assad’s
case did not warrant a presumption of prejudice
because his counsel’s mistake was more like those
cases involving the “mere ineffective assistance of
counsel” or the failure to raise particular issues or
“arguments on appeal than those cases involving the
“denial of counsel altogether on appeal.” Id. at 303-04
(first quoting Robbins, 528 U.S. at 286, then citing
Penson, 488 U.S. at 88, and then citing Bell, 535 U.S.
at 697). Accordingly, it concluded Assad’s counsel’s
“alleged error—raising some issues rather than others
—[wa]s subject to the usual Strickland requirements
rather than the presumed prejudice exception.” Id. at
304.
With respect to Assad’s reliance on Hendricks,
the Nebraska Supreme Court opined the case “actually
support[ed] [its] determination that prejudice should
not be presumed” in Assad’s case. Id. at 305. It
reasoned that Assad’s counsel did not fail to provide
argument to support the issues she raised on appeal
like defense counsel in Hendricks; she failed “to assert

App.17a
particular issues on appeal,” which would not justify
a presumption of prejudice under Hendricks. Id.
Assad strongly disagrees with the Nebraska
Supreme Court’s interpretation and application of U.S.
Supreme Court precedent. He is adamant he was
denied his right to a direct appeal by his appellate
counsel’s errors and lays out the reasons he thinks
the Nebraska Supreme Court’s decision is wrong. But
this is a habeas case, and that is not the question for
this Court. See White, 572 U.S. at 419.
The question for this Court under § 2254(d)(1) is
whether the Nebraska Supreme Court’s decision that
the presumption of prejudice does not apply “resulted
in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States.” See also Williams v. Roper, 695 F.3d 825, 83132 (8th Cir. 2012) (explaining that absent an obvious
misapplication of relevant Supreme Court precedent,
“the proper question is whether there is” a reasonable
argument that the state-court decision is consistent
with that precedent). To prevail, Assad must show
the Nebraska Supreme Court’s decision was “so
lacking in justification that there was an error well
understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Harrington, 562 U.S. at 103. He has not done that.
The Nebraska Supreme Court’s decision is not
contrary to a holding of the U.S. Supreme Court on
“materially indistinguishable facts.” Bell, 535 U.S. at
694; see also Woods v. Donald , 575 U.S. 312, 317
(2015) (per curiam) (“[I]f the circumstances of a case
are only similar to our precedents, then the state court’s
decision is not contrary to the holdings in those cases.”)

App.18a
(internal quotation marks omitted). and Assad does
not deny the Nebraska Supreme Court identified and
analyzed the relevant U.S. Supreme Court precedent
and recognized the pertinent distinction between the
“denial of counsel altogether on appeal, which warrants
a presumption of prejudice, [and] mere ineffective
assistance of counsel on appeal, which does not.”
Robbins, 528 U.S. at 286.
Indeed, Assad never really argues in his brief that
the Nebraska Supreme Court’s application of those
presumption principles is “objectively unreasonable”
or otherwise beyond the pale. Lockyer, 538 U.S. at
75. His argument boils down to his assertion that the
Nebraska Supreme Court misapplied those general
principles to the unique facts of his case.
But “it is not ‘an unreasonable application of’
‘clearly established Federal law’ for a state court to
decline to apply a specific legal rule that has not been
squarely established by th[e] [Supreme] Court.”
Knowles v. Mirzayance , 556 U.S. 111, 122 (2009).
“Section 2254(d)(1) provides a remedy for instances
in which a state court unreasonably applies th[e]
[Supreme] Court’s precedent; it does not require state
courts to extend that precedent or license federal courts
to treat the failure to do so as error.” White, 572 U.S.
at 426 (“‘[I]f a habeas court must extend a rationale
before it can apply to the facts at hand,’ then by
definition the rationale was not ‘clearly established
at the time of the state-court decision.’” (quoting Yarborough v. Alvarado, 541 U.S. 652, 666 (2004))). “[W]here
the ‘precise contours’ of the right remain ‘unclear,’
state courts enjoy ‘broad discretion’ in their adjudication of a prisoner’s claims.” Id. at 424 (quoting Lockyer, 538 U.S. at 76); accord Yarborough, 541 U.S. at

App.19a
664 (“The more general the rule, the more leeway
courts have in reaching outcomes in case-by-case determinations.”).
Based on these principles, the Court concludes
Assad has not shown he is entitled to relief under
§ 2254(d)(1). If nothing else, fairminded jurists could
disagree as to whether his appellate counsel’s mistakes
constructively denied Assad a direct appeal. See
Harrington, 562 U.S. at 103.
C. No Certificate of Appealability
“[A] state prisoner seeking a writ of habeas corpus”
under § 2254 cannot appeal the denial of his petition
without first obtaining a certificate of appealability.
Miller-El v. Cockrell, 537 U.S. 322, 335 (2003) (citing
28 U.S.C. § 2253); Fed. R. App. P. 22(b). This Court
cannot grant such a certificate unless Assad “has made
a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). To do that, Assad “must
demonstrate that reasonable jurists would find [this]
[C]ourt’s assessment of the constitutional claims
debatable or wrong.” Slack v. McDaniel , 529 U.S.
473, 484 (2000). Because Assad has not made that
showing, the Court will not issue a certificate of
appealability.
III. Conclusion
Assad’s claim of ineffective assistance of appellate
counsel presents a difficult issue of constitutional
law. The Nebraska Supreme Court carefully examined
that issue and concluded the usual Strickland standard
applied and Assad failed to prove prejudice. Regardless
of whether that conclusion “was correct, it was clearly
not unreasonable.” Renico v. Lett, 559 U.S. 766, 779

App.20a
(2010). “AEDPA prevents defendants—and federal
courts—from using federal habeas corpus review as a
vehicle to second-guess the reasonable decisions of state
courts.” Id. Accordingly,
IT IS ORDERED:
1.

Petitioner Jason Assad’s Petition for a Writ
of Habeas Corpus under 28 U.S.C. § 2254
(Filing No. 1) is denied.

2.

This case is dismissed with prejudice.

3.

No certificate of appealability will issue.

4.

A separate judgment will be entered in this
case.

Dated this 26th day of October 2020.
BY THE COURT:
/s/ Robert F. Rossiter, Jr.
United States District Judge

App.21a
OPINION OF THE
SUPREME COURT OF NEBRASKA
(FEBRUARY 7, 2020)
NEBRASKA SUPREME COURT
________________________
STATE OF NEBRASKA,

Appellee,
v.
JASON ASSAD,

Appellant.
________________________
No. S-17-1193
Before: HEAVICAN, C.J., MILLER-LERMAN,
CASSEL, STACY, FUNKE, and PAPIK, JJ.
PAPIK, J.
After Jason Assad was convicted of several criminal offenses, he appealed. The only errors his appellate
counsel initially assigned, however, pertained to issues
that were not preserved for appellate review. And
although his counsel later sought leave to assert
that trial counsel was ineffective in failing to preserve
issues for appeal, those attempts were unsuccessful
and Assad’s convictions were summarily affirmed.
Assad now seeks postconviction relief, asserting that
his appellate counsel was ineffective and arguing that,
unlike most defendants asserting ineffective assistance

App.22a
of counsel, he is not required to demonstrate that he
was prejudiced as a result of counsel’s defi cient
performance. The district court rejected Assad’s
argument that he was entitled to a presumption of
prejudice and denied his motion for postconviction
relief without an evidentiary hearing. The Nebraska
Court of Appeals affirmed, but did not address Assad’s
argument regarding a presumption of prejudice.
Upon further review, we find this is not a circumstance in which prejudice is presumed, but, rather,
Assad is required to demonstrate that his counsel
performed deficiently and that he was actually prejudiced as a result of that deficient performance. Because
Assad has not even attempted to demonstrate prejudice,
we find that he is not entitled to postconviction relief
and affirm.
BACKGROUND
Assad’s Convictions.
On the morning of September 14, 2014, police in
Sidney, Nebraska, received a call from an individual
who reported hearing the sound of a woman’s scream
coming from a nearby motel. Assad and his wife lived
at the motel at the time. A police officer went to the
motel to investigate. After the officer was unable to
make contact with anyone at the motel, he obtained
a search warrant. During the execution of the search
warrant, officers entered the room in which Assad and
his wife resided. There, the officers were confronted
by Assad, who was yelling profanities. The officers
later found Assad’s wife with injuries to her head
and face. They also found what appeared to be evidence of narcotics. The officers then obtained addi-

App.23a
tional search warrants. During the execution of the
additional search warrants, officers seized surveillance
videos, which included footage from the inside of the
motel room. Officers continued to investigate and
determined that Assad had possession of a knife and
a rifle in the motel room and that he had previously
been convicted of a felony.
Assad was later charged with possession of a
weapon by a prohibited person, first degree false
imprisonment, terroristic threats, use of a weapon to
commit a felony, and possession of a firearm by a
prohibited person. Prior to trial, he filed a series of
suppression motions, each of which sought to suppress
evidence obtained through the September 14, 2014,
searches. The district court held a hearing on the
motions to suppress and denied the motions, concluding
that the searches were done pursuant to valid search
warrants and, alternatively, that the good faith
exception recognized in United States v. Leon, 468 U.S.
897, 104 S. Ct. 3405, 82 L.Ed.2d 677 (1984), applied.
At trial, when the State introduced evidence seized
through the September 14, 2014, searches, Assad did
not renew the objections he made in his pretrial
motions to suppress. A jury found Assad guilty of
each of the charged offenses listed above. Assad was
later found to be a habitual criminal at a sentencing
enhancement hearing. He was sentenced to an aggregate period of 35 to 60 years’ imprisonment.
Direct Appeal.
Assad’s trial counsel filed a notice of appeal, but
shortly thereafter new counsel entered an appearance
and his trial counsel was granted leave to withdraw.

App.24a
His appellate counsel later filed a 40-page brief assigning two errors on appeal, both of which addressed the
denial of Assad’s pretrial motions to suppress. The brief
contained arguments that evidence seized in the search
of his residence should be suppressed, because officers
violated his Fourth Amendment rights when they
entered his residence, and that evidence seized after
the search of his residence should be suppressed as
fruit of the poisonous tree.
The State responded by filing a motion for summary affirmance. In support of its motion, the State
noted that Assad’s trial counsel had not objected at trial
to the evidence that was the subject of the motions to
suppress. As a result, the State contended, Assad’s
arguments that evidence should have been suppressed
were not properly preserved for appellate review.
Following the State’s motion for summary
affirmance, Assad’s appellate counsel filed a motion
requesting leave to file a revised brief. The motion
stated that the revised brief would “address issues
raised in [the State’s] Motion for Summary Affirmance.”
Attached to the motion was a proposed revised brief,
which added a new assignment of error alleging that
trial counsel’s failure to object at trial to the evidence
Assad previously sought to suppress constituted ineffective assistance of counsel. The Court of Appeals
denied leave to file the revised brief. It later granted the
State’s motion for summary affirmance. The Court of
Appeals’ disposition stated in full:
Motion of appellee for summary affirmance
sustained; judgment affirmed. See Neb. Ct.
R. App. P. § 2-107(B)(2); State v. Podrazo ,
21 Neb. App. 489, 840 N.W.2d 898 (2013)

App.25a
(defendant must object at trial to the admission of evidence sought to be suppressed to
preserve an appellate question concerning
admissibility of that evidence).
Assad’s appellate counsel subsequently filed a
motion to file a supplemental brief. This motion
attached a proposed supplemental brief containing a
single assignment of error: that trial counsel’s failure
to object at trial to the evidence that was the subject
of the suppression motions constituted ineffective
assistance of counsel. The Court of Appeals denied the
motion.
Assad’s appellate counsel then filed a petition
for further review on Assad’s behalf. This court denied
the petition for further review.
Postconviction Proceedings.
After the conclusion of the direct appeal proceedings, Assad, represented by yet another attorney, filed
a verified motion for postconviction relief. The postconviction motion asserted various claims for relief.
One layered claim of ineffective assistance of counsel
is relevant for present purposes. Assad alleged that
his appellate counsel’s failure to allege ineffective
assistance on the part of his trial counsel constituted
ineffective assistance of appellate counsel. Assad
claimed his appellate counsel should have asserted
that trial counsel’s failure to preserve a number of
issues for appellate review, including the claim that
the motions to suppress should have been granted,
amounted to ineffective assistance.
The State filed a motion to dismiss the postconviction motion without an evidentiary hearing. Assad

App.26a
filed a brief in opposition. In the brief, Assad claimed
that as a result of appellate counsel’s performance,
he was denied all appellate review and was entitled
to a new direct appeal.
The district court granted the State’s motion to
dismiss and denied Assad’s motion for postconviction
relief without an evidentiary hearing. In a written
order, the district court rejected Assad’s argument
that he was entitled to a new direct appeal. Instead,
it concluded that Assad was entitled to relief under
Strickland v. Washington, 466 U.S. 668, 104 S. Ct.
2052, 80 L.Ed.2d 674 (1984) (Strickland), only if he
could show that his counsel was deficient and that
this deficient performance prejudiced him. With respect
to Assad’s layered claim of ineffective assistance of
counsel, the trial court concluded that Assad could
not show prejudice because the arguments he claimed
counsel should have presented lacked merit.
Court of Appeals.
Assad appealed to the Court of Appeals. Among
his assignments of error was a contention that the
district court erred in rejecting his layered claim of
ineffective assistance of counsel. He argued that under
cases such as State v. Trotter, 259 Neb. 212, 609 N.W.
2d 33 (2000), he should not have been required to
prove prejudice, because prejudice should be presumed, and that he was thus entitled to a new direct
appeal.
The Court of Appeals affirmed the district court’s
order. State v. Assad, No. A-17-1193, 2019 WL 951169
(Neb. App. Feb. 26, 2019) (selected for posting to court
website). The Court of Appeals observed that, with

App.27a
one exception not relevant here, Assad did not make
any specific argument on appeal as to why his trial
counsel’s failures to preserve issues for appellate
review amounted to ineffective assistance. It thus
concluded that Assad had not sufficiently argued his
claim that appellate counsel was ineffective for not
asserting a layered claim of ineffective assistance of
counsel and did not consider its merits.
Petition for Further Review.
Assad filed a petition for further review. His sole
assignment of error was that the Court of Appeals
erred by affirming the district court’s dismissal of his
ineffective assistance of appellate counsel claim. He
again argued that, under the circumstances, prejudice
should be presumed and that he should have been
awarded a new direct appeal for his appellate counsel’s
deficient performance.
We granted Assad’s petition for further review.
We directed the parties to file supplemental briefs
addressing whether, under the circumstances, Assad
was required to demonstrate prejudice under Strickland
or whether this is a case in which prejudice is presumed.
ASSIGNMENT OF ERROR
As noted above, Assad assigns one error in his
petition for further review. He contends that the Court
of Appeals erred by affirming the district court’s
denial of relief on his claim for ineffective assistance
of appellate counsel. He argues that, under the circumstances, he is entitled to a presumption of prejudice
and a new direct appeal.

App.28a
STANDARD OF REVIEW
[1] In appeals from postconviction proceedings,
an appellate court reviews de novo a determination
that the defendant failed to allege sufficient facts to
demonstrate a violation of his or her constitutional
rights or that the record and files affirmatively show
that the defendant is entitled to no relief. State v.
Martinez, 302 Neb. 526, 924 N.W.2d 295 (2019).
ANALYSIS
Question at Issue: Is Prejudice Presumed?
In most cases in which ineffective assistance of
counsel is alleged, the case turns on whether the
defendant can satisfy both parts of the familiar twopart framework of Strickland. Under that framework,
a defendant must show that his or her counsel’s performance was deficient and that counsel’s deficient
performance actually prejudiced the defense in his or
her case. Martinez, supra. This case is different. It is
different because Assad does not even attempt to
show that his defense was prejudiced as a result of
his appellate counsel’s allegedly deficient performance.
The Court of Appeals essentially concluded that
because Assad did not make an argument as to prejudice, he had not presented sufficient argument in
support of his ineffective assistance of appellate counsel
claim. See State v. Assad, No. A-17-1193, 2019 WL
951169 (Neb. App. Feb. 26, 2019) (selected for posting
to court website). From the beginning of this postconviction proceeding, however, Assad has consistently
argued that because prejudice is presumed, he is not
required to demonstrate prejudice and is entitled to a

App.29a
new direct appeal. We will thus proceed to consider
if this is indeed a case in which a presumption of
prejudice arises. We will do so by first reviewing the
applicable legal standards and then by applying those
standards to this case.
Legal Standards Regarding Presumed Prejudice.
[2-4] As noted above, generally to prevail on a
claim of ineffective assistance of counsel, the defendant
must show both deficient performance and prejudice.
See State v. Avina-Murillo, 301 Neb. 185, 917 N.W.2d
865 (2018). To show that counsel’s performance was
deficient, a defendant must show that counsel’s performance did not equal that of a lawyer with
ordinary training and skill in criminal law. Id. To show
prejudice, the defendant must demonstrate a reasonable probability that but for counsel’s deficient
performance, the result of the proceeding would have
been different. Id. These familiar general elements of a
claim of ineffective assistance of counsel were set forth
in the U.S. Supreme Court’s opinion in Strickland.
There are some cases, however, in which a defendant asserting ineffective assistance need not demonstrate prejudice in order to prevail. In Strickland
and in United States v. Cronic , 466 U.S. 648, 104 S.
Ct. 2039, 80 L.Ed.2d 657 (1984), another ineffective
assistance of counsel opinion issued the same day as
Strickland, the U.S. Supreme Court recognized that in
some situations, prejudice is presumed. In Strickland,
the Court stated that “[a]ctual or constructive denial
of the assistance of counsel altogether” and “various
kinds of state interference with counsel’s assistance”
would result in a presumption of prejudice. 466 U.S. at

App.30a
692. In Cronic, the Court held that prejudice would
also be presumed if “counsel entirely fails to subject the
prosecution’s case to meaningful adversarial testing.”
466 U.S. at 659. These circumstances, the Cronic
Court observed, “are so likely to prejudice the accused
that the cost of litigating their effect in a particular
case is unjustified.” 466 U.S. at 658.
In the years following Strickland and Cronic, the
U.S. Supreme Court has made clear that in order for
prejudice to be presumed as a result of counsel’s inadequate performance, the failure must be extreme. In
Bell v. Cone, 535 U.S. 685, 122 S. Ct. 1843, 152 L.Ed.
2d 914 (2002), the Sixth Circuit Court of Appeals
applied a presumption of prejudice in a case in which
defense counsel in a first degree murder trial waived
his closing argument in a sentencing proceeding that
ultimately resulted in a death sentence. The U.S.
Supreme Court reversed. It explained that the presumption of prejudice based on an attorney’s failure
to test the prosecution’s case recognized in Cronic
was limited to cases in which the attorney’s failure to do
so was “complete.” Bell, 535 U.S. at 697. A presumption was not appropriate in Bell, the Court reasoned,
because the defendant was merely arguing that his
counsel failed to oppose the prosecution at specific
points of the sentencing proceeding rather than
throughout.
Two years later in Florida v. Nixon , 543 U.S.
175, 125 S. Ct. 551, 160 L.Ed.2d 565 (2004), the U.S.
Supreme Court again reversed a lower court’s decision,
holding that a presumption of prejudice was not called
for under the circumstances. In that case, defense
counsel conceded the defendant’s guilt without the

App.31a
defendant’s consent. The Court held that a presumption
of prejudice was not warranted and described the
presumption of prejudice as a “narrow exception” to
Strickland that will arise “infrequently.” Nixon, 543
U.S. at 190.
The cases discussed to this point have considered
the general principles that determine whether a presumption of prejudice ought to apply to an ineffective
assistance of counsel claim. The U.S. Supreme Court
has also, in a number of cases, considered whether a
presumption of prejudice was appropriate in cases in
which ineffective assistance of appellate counsel was
alleged.
In the appellate context, the U.S. Supreme Court
has held that the presumption of prejudice applies
when the accused is deprived of the assistance of
counsel on appeal. See Penson v. Ohio, 488 U.S. 75,
109 S. Ct. 346, 102 L.Ed.2d 300 (1988). It reached
this conclusion by relying on the language in Strickland
and United States v. Cronic, 466 U.S. 648, 104 S. Ct.
2039, 80 L.Ed.2d 657 (1984), explaining that a presumption of prejudice is appropriate upon the actual
or constructive denial of counsel. See Penson, supra.
Reasoning that a denial of an appeal altogether
is even more serious than the denial of counsel
during an appeal, the U.S. Supreme Court has also
held that a presumption of prejudice arises if counsel
fails to file a notice of appeal when requested to do so
by the defendant. See Roe v. Flores-Ortega, 528 U.S.
470, 120 S. Ct. 1029, 145 L.Ed.2d 985 (2000). In that
circumstance, the Court has held that the proper
remedy is to afford the defendant a new opportunity
to appeal. See Garza v. Idaho, ___ U.S. ___, 139 S. Ct.

App.32a
738, 203 L.Ed.2d 77 (2019). We have held the same. See
State v. Trotter, 259 Neb. 212, 609 N.W.2d 33 (2000).
With these principles in mind, we turn to whether
a presumption of prejudice ought to apply in this
case.
Does Presumption of Prejudice Apply Here?
In considering whether prejudice should be presumed here, we reject at the outset Assad’s argument
that this case is directly controlled by Garza, supra,
and Flores -Ortega , supra . As explained above, in
those cases, the U.S. Supreme Court held that prejudice is presumed when counsel fails to file a notice
of appeal as requested by the defendant, thereby
depriving the defendant of a desired appeal altogether.
In this case, a notice of appeal was filed on Assad’s
behalf. And although the Court of Appeals resolved
the appeal summarily, it considered the issues raised
on appeal and affirmed the convictions rather than
dismissing the appeal. Assad was thus not denied a
direct appeal entirely, and this case cannot be quickly
resolved in his favor with nothing more than a
citation to Garza and Flores-Ortega.
Even if not directly governed by Garza and FloresOrtega, Assad nonetheless urges us to find that prejudice is presumed here because, in his words, he
“effectively received no direct appeal.” Supplemental
brief for appellant on petition for further review at
13. We are not aware, however, of any cases of the
U.S. Supreme Court that would characterize the set
of circumstances here as equivalent to the complete
denial of an appeal. And, as we will explain, what
the U.S. Supreme Court has said about a presump-

App.33a
tion of prejudice in the appellate context leads us
to conclude that a presumption of prejudice is not
warranted in this case.
In Smith v. Robbins, 528 U.S. 259, 286, 120 S. Ct.
746, 145 L.Ed.2d 756 (2000), another case in which a
party alleging ineffective assistance of appellate counsel
argued for a presumption of prejudice, the U.S.
Supreme Court drew a distinction between a “denial
of counsel altogether on appeal” and “mere ineffective assistance of counsel on appeal.” The former,
the Court explained, warranted a presumption of
prejudice while the latter did not.
Although appellate counsel’s performance in this
case may well have been deficient, we think it unfair
to characterize it as amounting to nothing. As we
have noted, Assad’s counsel filed a 40-page appellate
brief, which assigned multiple errors. Additionally,
once the State filed its motion for summary affirmance,
Assad’s counsel made multiple attempts to raise
additional assignments of error in the Court of
Appeals and sought further review in this court. Just
as it cannot be said that Assad was denied an appeal,
it cannot be said that Assad effectively went without
appellate counsel.
This is not to say that the performance of Assad’s
appellate counsel was flawless. Indeed, all involved
recognize that Assad’s counsel made a serious mistake
by only assigning error to the district court’s admission of evidence challenged in the motions to suppress
rather than asserting that trial counsel was ineffective for failing to preserve the right to raise the motions
to suppress on appeal. Again, however, Smith, supra,
indicates that this type of alleged error—raising

App.34a
some issues rather than others—is subject to the
usual Strickland requirements rather than the presumed prejudice exception.
In Smith, the U.S. Supreme Court acknowledged
that appellate counsel can provide deficient performance by “‘ignor[ing] issues [that] are clearly stronger
than those presented.’” 528 U.S. at 288, quoting Gray
v. Greer, 800 F.2d 644 (7th Cir. 1986). The Court
made clear, however, that a defendant attempting to
establish a claim of ineffective assistance of appellate
counsel on the theory that counsel raised the wrong
issues must establish traditional Strickland prejudice,
i.e., demonstrate a reasonable probability that the
outcome of the proceeding would have been different
had counsel raised a different argument. In Penson
v. Ohio, 488 U.S. 75, 88, 109 S. Ct. 346, 102 L.Ed.2d
300 (1988), the Court did the same, distinguishing
the case before it in which prejudice was properly
presumed from a case in which “counsel fails to press
a particular argument on appeal.”
To all this, we imagine that Assad would likely
contend that even if defendants generally must prove
prejudice when asserting that counsel performed
deficiently by raising the wrong appellate issues, this
should be treated as an exceptional case given that
Assad’s appellate counsel raised only issues that were
not preserved for appellate review. But again, language
from the U.S. Supreme Court leads us to conclude
this case is subject to the usual Strickland rule.
In Bell v. Cone, 535 U.S. 685, 697, 122 S. Ct. 1843,
152 L.Ed.2d 914 (2002), when discussing whether
prejudice ought to be presumed when counsel waived
closing argument in a sentencing proceeding, the

App.35a
Court noted that the difference between circumstances
in which prejudice is presumed and in which prejudice must be proved under Strickland “is not of
degree but of kind.” We read this language to undercut
any notion that a presumption of prejudice might
apply in some exceptional cases in which it is alleged
that appellate counsel should have raised additional
arguments. Appellate counsel may have failed to a
serious degree in this case, but that failure does not
differ in kind from other cases in which a defendant
alleges that his appellate counsel raised the wrong
issues on appeal and, as discussed, defendants must
prove prejudice under those circumstances.
Given our understanding of the U.S. Supreme
Court’s pronouncements in this area, we are unpersuaded by the arguments Assad presents based
on decisions of other courts. Some of the decisions
Assad cites in which a presumption of prejudice was
found to apply are cases in which counsel failed to
file an appellate brief and, for that reason, the appeal
was dismissed. See, e.g., Hardaway v. Robinson, 655
F.3d 445 (6th Cir. 2011); People v. Moore, 133 Ill. 2d
331, 549 N.E.2d 1257, 140 Ill. Dec. 385 (1990). But in
cases like those, the appellate court does not consider
any issues and the appeal is dismissed as a result of
appellate counsel’s failure. It is thus, at least arguably,
not meaningfully different from a case in which counsel
fails to perfect an appeal when requested to do so by
the defendant and the defendant is denied an appeal
altogether. In contrast, Assad’s appellate counsel did
file a brief and his appeal was not dismissed. The Court
of Appeals gave consideration to the errors assigned,
but found they were not properly preserved, and
affirmed.

App.36a
Another case Assad directs us to, Hendricks v.
Lock, 238 F.3d 985 (8th Cir. 2001), presents a slightly
different scenario, but, in our view, it is also unavailing.
In Hendricks, the Eighth Circuit determined that prejudice should be presumed in a case in which appellate counsel filed a brief, but the Missouri Supreme
Court refused to address the issues raised because it
found that the brief lacked any reasoned arguments
and thus “‘provide[d] nothing for meaningful review.’”
238 F.3d at 986, quoting State v. Hendricks, 944 S.W.
2d 208 (Mo. 1997). The Eighth Circuit distinguished
the circumstances from a case in which it was
alleged that counsel failed to raise a particular issue,
concluding that prejudice was presumed because the
inadequacy of the appellate brief led the Missouri
Supreme Court to decline to address the issues the
defendant raised on appeal.
We believe the reasoning of the Eighth Circuit in
Hendricks actually supports our determination that
prejudice should not be presumed here. The failure
on the part of Assad’s appellate counsel was not a
failure to provide argumentation in support of the
issues raised; it was a failure to assert particular issues
on appeal. Hendricks indicates that prejudice is not
presumed in the latter circumstance.
For similar reasons, we are also not persuaded
by Assad’s reliance on a concurring opinion in State
v. Sundquist, 301 Neb. 1006, 921 N.W.2d 131 (2019)
(Cassel, J., concurring; Miller-Lerman, J., joins). In
Sundquist, counsel failed to file a statement of errors
in an appeal from county court to district court. The
State conceded that this was deficient performance,
but this court found that there was no prejudice. The

App.37a
concurring opinion emphasized the importance of
filing a timely statement of errors and suggested that
a presumption of prejudice might have been appropriate if not for the district court’s consideration of the
defendant’s argument for prejudicial error, even though
the failure to file a statement of errors would have
justified a more “cursory review by the district court
for plain error.” Id. at 1026, 921 N.W.2d at 146 (Cassel,
J., concurring; Miller-Lerman, J., joins).
Assad argues that his direct appeal received the
same type of cursory review the concurring opinion
in Sundquist suggested might give rise to a presumption of prejudice. We do not agree. The Court of
Appeals did summarily affirm Assad’s direct appeal,
but it did not review the errors assigned for mere
plain error or under some other cursory standard of
review. The summary affirmance was not the result of
a cursory standard of review, but, rather, the unpreserved issues appellate counsel raised. And, as we have
explained, an assertion that counsel ineffectively raised
some issues rather than others requires a showing of
prejudice.
Though cited by neither party, we believe it also
appropriate to mention a decision of the Pennsylvania
Supreme Court, given its similarity to the facts of
this case. In Commonwealth v. Rosado, 637 Pa. 424,
150 A.3d 425 (2016), much like this case, the only
issue appellate counsel raised on appeal was an issue
that was not properly preserved in the trial court.
The Pennsylvania Supreme Court found that prejudice
should be presumed. It reasoned that there was no
meaningful difference between an attorney who completely fails to file a notice of appeal “and one who

App.38a
makes all necessary filings, but does so relative solely
to claims he has not preserved for appeal, producing
the same end.” Id., 637 Pa. at 439-40, 150 A.3d at
434.
It appears that Assad would be entitled to a presumption of prejudice under the reasoning articulated
by the Pennsylvania Supreme Court in Rosado. We,
however, respectfully disagree with the conclusion
that the raising of unpreserved claims is equivalent
to the complete failure to file a requested notice of
appeal for purposes of deciding whether a presumption
of prejudice arises.
It is of course true that a defendant will not obtain
relief on direct appeal both when appellate counsel fails
to file a notice of appeal and when appellate counsel
raises only unpreserved issues, but the same could
be said of any case in which appellate counsel raises
issues lacking merit and the defendant later claims
that others should have been raised. But when a claim
is made that appellate counsel was ineffective for
raising some issues rather than others, the U.S.
Supreme Court has made clear that prejudice must
be shown. And, in our view, Assad, by asserting that
his counsel was ineffective for raising only unpreserved
issues, is raising just this type of claim.
Proving Prejudice Under Strickland.
For all the reasons we have discussed, we do not
believe this is a case in which prejudice is presumed.
That does not mean, however, that Assad had no opportunity to establish a claim of ineffective assistance of
appellate counsel. Instead, just as in most other cases
in which a defendant alleges ineffective assistance,

App.39a
Assad would be entitled to relief under Strickland if he
could prove that his appellate counsel’s performance
was deficient and that he suffered prejudice as a
result of that deficient performance.
In this case, Assad likely would have had little
problem establishing deficient performance. His entitlement to relief would thus depend solely on whether
he could demonstrate a reasonable probability that,
but for his appellate counsel’s deficient performance,
the result of his appeal would have been different. This
would require a showing that had his trial counsel
properly preserved issues for appellate review, there
was a reasonable probability that his direct appeal
would have resulted in something other than his
convictions being affirmed.
Assad has never attempted to make such a showing. Instead, he has relied exclusively on his argument
that prejudice is presumed and he is entitled to a new
direct appeal. Because we find that prejudice is not
presumed and because Assad has not attempted to
demonstrate prejudice, his motion for post-conviction
relief based on a claim of ineffective assistance of
appellate counsel was properly denied without an
evidentiary hearing.
CONCLUSION
For the reasons discussed above, we find that
Assad was required to demonstrate prejudice under
Strickland and that he failed to do so. We therefore
affirm the decision of the Court of Appeals.
AFFIRMED.
FREUDENBERG, J., not participating.

App.40a
MEMORANDUM OPINION AND
JUDGMENT ON APPEAL OF THE
NEBRASKA COURT OF APPEALS
(FEBRUARY 26, 2019)
IN THE NEBRASKA COURT OF APPEALS
STATE v. ASSAD
________________________
STATE OF NEBRASKA,

Appellee,
v.
JASON ASSAD,

Appellant.
________________________
No. A-17-1193
Appeal from the District Court for Cheyenne County:
Derek C. Weimer, Judge Affirmed
Before: MOORE, Chief Judge, RIEDMANN and
BISHOP, Judges. RIEDMANN, Judge.
NOTICE: THIS OPINION IS NOT DESIGNATED
FOR PERMANENT PUBLICATION AND MAY
NOT BE CITED EXCEPT AS PROVIDED
BY NEB. CT. R. APP. P. § 2-102(E).

App.41a
INTRODUCTION
Jason Assad appeals the order of the district court
for Cheyenne County which granted the State’s motion
to dismiss his verified motion for postconviction relief.
We affirm.
BACKGROUND
In 2015, Assad was charged by second amended
information with count I, possession of a weapon (knife)
by a prohibited person; count II, first degree false
imprisonment; count III, terroristic threats; count
IV, use of a weapon (knife) to commit a felony; and
count V, possession of a firearm by a prohibited
person. The State also alleged that he was a habitual
criminal. Prior to trial, Assad filed several motions to
suppress evidence that had been seized pursuant to
three separate search warrants. The district court
denied all of the motions.
A jury trial was held, and the jury found Assad
guilty of all five counts. Thereafter, the district court
held a hearing on the habitual criminal enhancement.
In support of the allegation, the State offered into
evidence two exhibits, marked as exhibits 54 and 55,
which were certified copies of prior felony convictions
from Colorado. The exhibits were received into evidence
over Assad’s foundational objections, and the court
found the evidence sufficient to support the habitual
criminal enhancement.
Assad was sentenced to terms of imprisonment
of 10 to 20 years on count I, 15 to 20 years on count II,
15 to 20 years on count III, 10 to 20 years on count
IV, and 10 to 20 years on count V. The sentences
in counts II and III were to run concurrent to the

App.42a
sentence on count I. The sentence on count IV was to
run consecutive to the sentences on counts I, II, and III,
and the sentence on count V was to run consecutive
to the sentences on counts I, II, III, and IV.
Assad appealed his convictions and sentences. On
direct appeal, he was represented by different counsel
than counsel who represented him at trial. His appellate counsel asserted two assignments of error related
to the pretrial motions to suppress. The State filed a
motion for summary affirmance, alleging that trial
counsel had not renewed his motions to suppress
during trial by objecting to any evidence seized pursuant to the search warrants, and therefore, the errors
alleged on appeal had been waived. Assad’s appellate
counsel then filed a motion requesting leave to file a
revised brief in which she added an error assigning
that trial counsel was ineffective in failing to object to
such evidence at trial. This court denied leave to file
the revised brief and granted the State’s motion,
summarily affirming Assad’s convictions and sentences.
See State v. Assad (No. A-15-613, Jan. 21, 2016) (disposed of without opinion).
On March 21, 2017, Assad filed a verified motion
for postconviction relief through new counsel. The
motion alleged that he was entitled to relief on six
grounds. The State then filed a motion to dismiss.
After holding a hearing on the motion to dismiss, the
district court entered an order finding that all of the
claims raised in the postconviction motion were either
procedurally barred or lacked merit. Assad timely
appeals to this court.

App.43a
ASSIGNMENTS OF ERROR
Assad assigns that the district court erred in (1)
finding that exhibit 54 was sufficient to prove a prior
felony conviction for enhancement purposes and (2)
granting the State’s motion to dismiss because he
received ineffective assistance of appellate counsel.
STANDARD OF REVIEW
In appeals from postconviction proceedings, an
appellate court reviews de novo a determination that
the defendant failed to allege sufficient facts to demonstrate a violation of his or her constitutional rights or
that the record and files affirmatively show that the
defendant is entitled to no relief. State v. Ross, 296
Neb. 923, 899 N.W.2d 209 (2017).
Whether a claim raised in a postconviction proceeding is procedurally barred is a question of law.
Id. When reviewing a question of law, an appellate
court resolves the question independently of the lower
court’s conclusion. Id.
ANALYSIS
Exhibit Used for Enhancement Purposes.
Assad first argues that exhibit 54 was insufficient
to establish a prior felony conviction for purposes of
the habitual criminal enhancement. We conclude
that the district court properly dismissed this claim
because it is procedurally barred.
Postconviction relief is a very narrow category of
relief available only to remedy prejudicial constitutional
violations. State v. Ross, supra. A motion for postconviction relief cannot be used to secure review of issues

App.44a
which were or could have been litigated on direct
appeal. Id.
Here, whether exhibit 54 was sufficient for
enhancement purposes is an issue that could have
been raised on direct appeal, but Assad failed to do
so. This claim is therefore procedurally barred and
cannot be raised in a postconviction motion.
Ineffective Assistance of Appellate Counsel.
Assad also alleges that he received ineffective
assistance of appellate counsel. To establish a right
to postconviction relief because of counsel’s ineffective
assistance, the defendant has the burden, under
Strickland v. Washington, 466 U.S. 668, 104 S. Ct.
2052, 80 L.Ed.2d 674 (1984), to show that counsel’s
performance was deficient; that is, counsel’s performance did not equal that of a lawyer with ordinary
training and skill in criminal law. State v. Sellers, 290
Neb. 18, 858 N.W.2d 577 (2015). Next, the defendant
must show that counsel’s deficient performance prejudiced the defense in his or her case. Id. To show prejudice, the defendant must demonstrate a reasonable
probability that but for counsel’s deficient performance,
the result of the proceeding would have been different.
Id. A court may address the two prongs of this test,
deficient performance and prejudice, in either order.
Id.
A claim of ineffective assistance of appellate
counsel which could not have been raised on direct
appeal may be raised on postconviction review. Id.
When analyzing a claim of ineffective assistance of
appellate counsel, courts usually begin by determining
whether appellate counsel failed to bring a claim on
appeal that actually prejudiced the defendant. Id. That

App.45a
is, courts begin by assessing the strength of the claim
appellate counsel failed to raise. Id. Counsel’s failure
to raise an issue on appeal could be ineffective assistance only if there is a reasonable probability that
inclusion of the issue would have changed the result of
the appeal. Id. When a case presents layered ineffectiveness claims, we determine the prejudice prong of
appellate counsel’s performance by focusing on whether
trial counsel was ineffective under the Strickland
test. State v. Sellers, supra. If trial counsel was not
ineffective, then the defendant suffered no prejudice
when appellate counsel failed to bring an ineffective
assistance of trial counsel claim. Id.
Assad assigns that the district court erred in
dismissing his claims because he received ineffective
assistance of appellate counsel when appellate counsel
failed to allege as error on direct appeal that trial
counsel was ineffective in the following ways: (1) failing
to object at the enhancement hearing to exhibit 54,
(2) failing to object at trial to certain jury instructions, (3) failing to object at trial to a search warrant
affidavit, and (4) failing to object at trial to the
second and third search warrants and the evidence
seized pursuant to those warrants.
Despite the assigned error, Assad does not argue
his second, third, and fourth claims with respect to
ineffective assistance of appellate counsel. An alleged
error must be both specifically assigned and specifically
argued in the brief of the party asserting the error to
be considered by an appellate court. State v. Chacon,
296 Neb. 203, 894 N.W.2d 238 (2017).
Rather than set forth specific arguments as to
these claims, Assad generally argues that a defendant
is entitled to effective appellate counsel and asserts

App.46a
that because of his appellate counsel’s deficient performance, he was denied his constitutional right to a
direct appeal. Any error with respect to the denial of
his right to a direct appeal was not assigned as error,
however, and we therefore do not address it. Because
he does assert a specific argument with respect to
exhibit 54, we will address that issue in the context
of his ineffective assistance of appellate counsel claim.
Subsequent to the jury trial but before sentencing,
the district court held a hearing on the habitual criminal enhancement. At the hearing, the State offered
into evidence exhibit 54 for purposes of establishing
a previous felony conviction in order to support the
habitual criminal enhancement. The exhibit is a
certified copy of a prior conviction and shows that
Assad was convicted of a felony charge in Colorado in
2009 for which he was ultimately sentenced to the
Department of Corrections for 3 years. Assad’s trial
counsel objected to the exhibit on foundational grounds,
but the court overruled the objection and received it
into evidence. The court then determined that the
State presented sufficient evidence to support the
habitual criminal enhancement.
Nebraska’s habitual criminal statutes provide for
enhanced mandatory minimum and maximum sentences for a convicted defendant who has been twice
convicted of crimes for terms not less than 1 year.
State v. Alford, 278 Neb. 818, 774 N.W.2d 394 (2009).
See, also, Neb. Rev. Stat. § 29-2221 (Reissue 2016).
In a habitual criminal proceeding, the State’s evidence
must establish with requisite trustworthiness, based
upon a preponderance of the evidence, that (1) the
defendant has been twice convicted of a crime, for which
he or she was sentenced and committed to prison for

App.47a
not less than 1 year; (2) the trial court rendered a
judgment of conviction for each crime; and (3) at
the time of the prior conviction and sentencing, the
defendant was represented by counsel or had knowingly and voluntarily waived representation for those
proceedings. State v. Jenkins, 294 Neb. 684, 884
N.W.2d 429 (2016).
Assad argues that exhibit 54 is not a valid judgment of conviction for enhancement purposes because
the court order showing that he was sentenced to a
term of imprisonment was not signed by a judge. He
relies upon Neb. Rev. Stat. § 25-1301 (Reissue 2016)
to argue that in order to constitute a “judgment,” the
order must be signed by a judge.
The Nebraska Supreme Court has rejected a
similar argument as an impermissible collateral attack
on a prior conviction. See State v. Macek, 278 Neb.
967, 774 N.W.2d 749 (2009). In Macek, the defendant
was convicted of fourth-offense DUI after the court
received into evidence two certified prior convictions
for DUI over the defendant’s objection. On appeal,
the defendant argued that the trial court had erred
in using the two prior convictions to enhance his
sentence because those two convictions lacked a file
stamp. To support his argument, he, like Assad, relied
upon § 25-1301, which, in addition to a judge’s signature, also requires a file stamp and date in order for a
judgment to become final. The Supreme Court observed
that collateral attacks on previous proceedings are
impermissible unless the attack is grounded upon
the trial court’s lack of jurisdiction over the parties or
subject matter. The Supreme Court therefore rejected
the defendant’s argument and held that the evidence
was sufficient for enhancement purposes.

App.48a
Likewise here, by arguing that exhibit 54 was
not a final judgment because it lacked the signature
of a judge, Assad is collaterally attacking his prior
conviction. Because his attack is not based on lack of
jurisdiction, he is not permitted to challenge the prior
proceedings at this time. We therefore conclude that
exhibit 54 was sufficient to establish a prior conviction for the habitual criminal enhancement. Because
a challenge to the exhibit at the enhancement hearing
would not have been successful, trial counsel was not
ineffective in failing to object to the exhibit on these
grounds, and in turn, appellate counsel was not
ineffective in failing to raise on direct appeal the
ineffectiveness of trial counsel as to this issue.
Assad also assigns that exhibit 54 was insufficient
to support the habitual criminal enhancement because
the sentence therein was ordered to run concurrent
to a separate sentence he was serving in Colorado.
But because he does not specifically argue this claim,
we do not address it. See State v. Chacon, 296 Neb.
203, 894 N.W.2d 238 (2017) (alleged error must be
specifically assigned and specifically argued to be
considered by appellate court).
CONCLUSION
Based on the foregoing, we conclude that the district court did not err in granting the State’s motion
and dismissing the verified motion for postconviction
relief. We therefore affirm.
AFFIRMED.

App.49a
ORDER OF THE
NEBRASKA COURT OF APPEALS
(JANUARY 21, 2016)
NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS

Office of the Clerk
P.O. Box 98910
2413 State Capitol Building
Lincoln, NE 68509
(402) 471-3731
____________________________________
Nathan A. Liss
ATTORNEY GENERAL
2115 State Capitol
Lincoln, NE 68509
In Case of: A-15-000613, State v. Jason Assad
The following internal procedural submission or
filing by a party:
Mot. of Appellee for Summary Affirmance
submitted or filed 12/16/15
has been reviewed by the court and the following
order entered:
Motion of appellee for summary affirmance sustained; judgment affirmed. See Neb. Ct. R. App. P.
§ 2-107(B)(2); State v. Podrazo, 21 Neb. App. 489, 840
N.W.2d 898 (2013) (defendant must object at trial to
the admission of evidence sought to be suppressed to
preserve an appellate question concerning admissibility
of that evidence).

App.50a
Respectfully,
Clerk of the Supreme Court
and Court of Appeals

IMPORTANT NOTICE
Due to the reduced number of cases awaiting
submission to the Supreme Court and Court of Appeals,
and as part of the courts’ continuing efforts to reduce
case-processing time, future requests for brief date
extensions will be closely scrutinized. See Neb. Ct. R.
App. P. §§ 2-106(F) and 2-109(A). Pursuant to Neb.
Ct. R. App. P. § 2-11 0(A), if an appellant’s default for
failure to file briefs is issued, appellant “is required
to file a brief within 10 days after receipt of such
notice. Appellant’s failure to file a brief in response to
the notice of default subjects the appeal to dismissal.”
PLEASE BE ADVISED THAT THESE RULES
WILL BE STRICTLY ENFORCED.

